<html>
<title> - [H.A.S.C. No. 113-105] RUSSIAN MILITARY DEVELOPMENTS AND STRATEGIC IMPLICATIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                                 
 
                         [H.A.S.C. No. 113-105]

        RUSSIAN MILITARY DEVELOPMENTS AND STRATEGIC IMPLICATIONS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 8, 2014


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    



                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-450                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone (202) 512-1800, or 866-512-1800 (toll free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>
  
  
  
  
  
  
  
  
  
  
  
  



                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDREE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                Kimberly Shaw, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, April 8, 2014, Russian Military Developments and 
  Strategic Implications.........................................     1

Appendix:

Tuesday, April 8, 2014...........................................    37
                              ----------                              

                         TUESDAY, APRIL 8, 2014
        RUSSIAN MILITARY DEVELOPMENTS AND STRATEGIC IMPLICATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Chollet, Hon. Derek, Assistant Secretary of Defense for 
  International Security Affairs, Office of the Secretary of 
  Defense for Policy, U.S. Department of Defense.................     4
Pandolfe, VADM Frank C., USN, Director for Strategic Plans and 
  Policy (J-5), Joint Staff, U.S. Department of Defense..........     6

                                APPENDIX

Prepared Statements:

    Chollet, Hon. Derek..........................................    45
    McKeon, Hon. Howard P. ``Buck''..............................    41
    Pandolfe, VADM Frank C.......................................    51
    Smith, Hon. Adam.............................................    43

Documents Submitted for the Record:

    Washington Post editorial, ``John Kerry's Departure from 
      Reality''..................................................    59

Witness Responses to Questions Asked During the Hearing:

    Dr. Wenstrup.................................................    63

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
        RUSSIAN MILITARY DEVELOPMENTS AND STRATEGIC IMPLICATIONS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, April 8, 2014.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen.
    The committee meets to receive testimony on ``Russian 
Military Developments and Strategic Implications.'' Immediately 
following this hearing, Members will receive a classified 
briefing by representatives from our intelligence community.
    Joining us today are Assistant Secretary of Defense for 
International Security Affairs Derek Chollet and Joint Staff 
Director for Strategic Plans and Policy Vice Admiral Frank 
Pandolfe.
    Thank you both for being here today and for your service to 
our Nation.
    Before we get started, I would like to welcome 
Congresswoman Tulsi Gabbard to the committee. Congresswoman 
Gabbard brings a wealth of experience and unique perspective, 
having served our Nation as an enlisted soldier and officer. 
With Tulsi and Colleen Hanabusa, the service men and women of 
the U.S. Pacific Command and in the great State of Hawaii are 
well represented.
    We look forward to working with you.
    The events unfolding in Ukraine are deeply troubling, from 
Russia's invasion and occupation of a sovereign country to its 
amassing of tens of thousands of troops along Ukraine's borders 
and further north under the ruse of conducting snap exercises. 
Just this past weekend, we saw reports that Russia is provoking 
further unrest in eastern Ukraine, attempting to create a 
reason to invade.
    Yet these actions are only the most recent and perhaps most 
aggressive of a broader campaign to challenge the West and to 
reestablish a Russian sphere of influence in Europe.
    Mr. Putin is directing a multidimensional military 
modernization effort. Russia is re-arming at an alarming rate, 
with military spending up roughly 30 percent. It stands in 
flagrant violation of a major nuclear arms control treaty and, 
under the New START [Strategic Arms Reduction Treaty] Treaty, 
is building up its nuclear forces by over 100 warheads since 
the last declaration, while the U.S. reduces its own forces.
    As former Secretary of Defense Robert Gates recently wrote 
in an op-ed, and I quote, ``Mr. Putin is playing a long game, 
and the West must also play a strategic long game. Yet the 
administration's policies have rested largely on reset, 
cooperation, and further nuclear cuts.''
    Just last week, Deputy Under Secretary Christine Wormuth, 
testifying on the QDR [Quadrennial Defense Review], stated that 
they ``probably would have added some additional sentences 
about Russia, given recent developments.'' That is hardly a 
reexamination of our Nation's policy towards Moscow.
    And while the QDR states that our military is sized to and 
capable of effectively deterring aggression, there are serious 
concerns about our ability to do just that, especially with a 
near-peer competitor.
    Our friends, as well as our adversaries, are watching our 
every move. It should come as no surprise that senior Japanese 
officials raised this issue with Secretary Hagel during his 
recent visit, as they seek to understand what our policy with 
regard to Russia's illegal annexation of Crimea signals for our 
commitments to our allies.
    This hearing is an opportunity to examine the strategic 
implications of Russia's military developments and recent 
actions. Secretary Chollet and Admiral Pandolfe, I hope you can 
also discuss how these developments are influencing any 
reexamination of U.S. policy towards Russia, including our 
force posture in Europe, how we reassure our allies and 
partners, and our defense investments.
    Gentlemen, thank you for appearing before our committee, 
and I look forward to your testimony.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I, too, welcome our 
witnesses today, look forward to their testimony and their 
expertise on this issue.
    And I want to join you in welcoming Congresswoman Gabbard 
to the committee. It is great to have her here. Obviously, 
Hawaii is a critical piece of our national security strategy 
and Department of Defense activities in Asia and beyond, so it 
is great to have that expertise there. And with her, I believe, 
11 years of service, now as a captain in the Army National 
Guard, her service in Iraq, I think that expertise is going to 
serve the committee very, very well.
    And I thank you for being here. Welcome to the committee.
    This is an incredibly important hearing, as we try to 
confront the challenges that the chairman, I think, described 
very well. What Russia has done in the Ukraine is a blatant 
violation of international law, a blatant violation of all 
manner of different treaties which Russia has signed, and is 
something that we in the U.S. and I believe every other nation 
in the world must do all we can to discourage and to send the 
message that it won't be tolerated and that type of behavior is 
outside of the international norm.
    Because it can potentially lead to destabilization in many 
places. If it becomes accepted that you can simply decide to 
take over another country and annex parts of them, it does not 
contribute to the international order.
    Now, this is a difficult situation. It is easy to say that 
we should not tolerate that; much more difficult to do. I don't 
think anybody on this committee wants to go to war with Russia 
over the Ukraine. But we do want to find a way to stop them 
from further aggression. And I think there are options.
    And, overall, this is a very unfortunate choice that 
President Putin has made, and it is not in the best interests 
of Russia. Once the Soviet Union collapsed, there was a real 
opportunity for Russia to move in and become one of the partner 
of nations, a great power that could participate with other 
great powers in building a more peaceful, prosperous, and 
stable world. They had that option.
    President Putin has chosen not to take that. He has chosen 
to further isolate Russia and find further conflict. I think 
this is a huge mistake. We have already seen the impact on the 
Russian economy. If Russia had been more willing to embrace the 
West and work with us, I think it would have led to greater 
economic opportunity and greater prosperity.
    The Russian population is in a very bad place right now. 
They have an aging population; they have an economy that is in 
trouble, rampant with corruption. It is not going to help them, 
to further destabilize their very own region and further turn 
the international community against them.
    I very much agree with President Obama, who said these 
actions by Putin are more a sign of weakness than they are a 
sign of strength. The question is, what do we do in response? I 
think initially we have to take whatever steps we can to try 
and economically isolate them. We have begun that process; I 
think we should continue it.
    But key to all of this will be NATO [North Atlantic Treaty 
Organization] and the EU [European Union]. Whatever amount of 
business we do with Russia, whatever our economic leverage over 
Russia is, the EU has at least 10 times that. They can make 
decisions to show Russia that this type of behavior won't be 
tolerated much more easily than we can.
    So I am very interested to hear from our witnesses about 
what our best approach is to working with our partners in 
Europe and to get full-scale cooperation in not just condemning 
Russia's actions but to make them pay a price for it that will 
make them think that this is not in their best interests.
    This is not easy. Regrettably, in many, many countries 
throughout the world, we have found that we cannot simply force 
them to behave in ways that we would like them to. But we have 
to try to alter this behavior, certainly condemn it, but try to 
find ways to hopefully make sure it does not happen in the 
future and to defuse the ongoing situation in the Ukraine. 
There is continuing concern that it will spread beyond Crimea 
into the eastern Ukraine and become even more of a problem.
    So, very curious to hear from our witnesses today about how 
we can contain that and respond to the Russian aggression in 
the Ukraine in a way that will not make the situation worse but 
hopefully will change Putin's calculations in the future.
    With that, I yield back and look forward to the testimony 
of the witnesses.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 43.]
    The Chairman. Thank you.
    Mr. Secretary.

STATEMENT OF HON. DEREK CHOLLET, ASSISTANT SECRETARY OF DEFENSE 
FOR INTERNATIONAL SECURITY AFFAIRS, OFFICE OF THE SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Chollet. Thank you, Mr. Chairman, thank you, 
Congressman Smith, members of the committee, for this hearing 
today. I very much appreciate the opportunity to speak with you 
on U.S. policy and actions in the wake of Russia's incursion in 
the Ukraine and how the Department of Defense has worked with 
our allies and international partners to address this issue.
    Russia's unlawful military intervention against Ukraine 
challenges our vision of a Europe whole, free, and at peace. It 
changes Europe's security landscape, it causes instability on 
NATO's borders, and it is a challenge to the international 
order.
    Since the outset of this crisis, the United States has 
pursued three courses of action: first, demonstrating support 
to Ukraine's transitional government; second, reassuring allies 
and deterring Russia from further military threats to Europe; 
and third, imposing costs on Russia for its illegal actions.
    The Department of Defense has an important role in 
achieving these objectives in all three areas. First, to 
support Ukraine, the United States has worked with partners 
like the IMF [International Monetary Fund], the U.N. [United 
Nations], the EU, the G-7 [Group of Seven], to provide Ukraine 
with political backing and economic assistance, including an 
$18 billion package from the IMF.
    For our part, the Department of Defense is working with 
Ukraine to review, prioritize, and grant its defense assistance 
requests for materials and supplies that would serve to support 
Ukraine without taking actions that would escalate this crisis 
militarily.
    The initial round of this process was completed last week, 
with the delivery of 300,000 MREs [meals ready-to-eat] to 
support Ukrainian forces in the field. This is the support that 
they had asked for. We have maintained senior-level defense 
dialogues with Ukrainian counterparts throughout this crisis. 
And we have led efforts at NATO to offer Ukraine greater access 
to NATO exercises, invite Ukraine to participate in the 
development of military capabilities, and provide capacity-
building programs to the Ukrainian military.
    The second course of action is reassuring U.S. allies and 
deterring Russia from further military action in Europe. As 
President Obama said recently during his trip to Brussels and 
his meeting with the NATO Secretary General there, the NATO 
alliance is, quote, ``the bedrock of America's security as well 
as European security.'' And just last week, NATO celebrated its 
65th anniversary.
    Reassurance measures so far include augmenting NATO's 
peacetime Baltic air policing mission; deploying air assets and 
personnel to Poland to supplement the U.S.-Poland aviation 
detachment, or AVDET, training rotation; and extending the USS 
Truxtun stay in the Black Sea to conduct exercises with 
Romanian and Bulgarian naval forces. We will also send another 
ship to the Black Sea within a week.
    NATO has also established orbits of Airborne Warning and 
Control System, or AWACS, aircraft over Poland and Romania, 
both to serve as additional assurance to allies that border 
Ukraine and to enhance NATO's situational awareness of 
activities in the region.
    The third course of action is imposing costs on Russia. 
Russia's violations of its own agreements and international law 
require a vigorous, coordinated response, and the United States 
has led the international community in isolating Russia 
diplomatically.
    Along with the European Union, Canada, and Australia, the 
U.S. has imposed visa restrictions and comprehensive sanctions 
on a growing list of Russian officials, one Russian bank, and 
members of Putin's inner circle, along with Ukrainians who 
played a role in undermining that country's sovereignty and 
misappropriating Ukrainian assets. As the President has made 
clear, the sanctions we have imposed to date are not the end of 
what we can do.
    At the Department of Defense, we have put on hold all 
military-to-military engagements with Russia, including 
exercises, bilateral meetings, port visits, and planning 
conferences. Although we have worked hard over two decades to 
try to build a cooperative, transparent defense relationship 
with Russia, the violations of international law and the 
undermining of stability in Europe mean that we cannot proceed 
with business as usual.
    NATO and many allies have likewise suspended military 
cooperation engagements with Russia, while maintaining the 
channels for dialogue that can serve to deescalate this crisis. 
And while we do not seek military confrontation with Russia, 
its actions in Europe and Eurasia may require the United States 
to reexamine our force posture in Europe and our requirement 
for future deployments, exercises, and training in the region.
    Mr. Chairman, Congressman Smith, members of the committee, 
let me conclude by saying that Russia's unlawful actions in 
Ukraine have dire implications for international and regional 
security. This has caused a paradigm shift in our relations 
with Moscow. And this crisis is not one that has been generated 
by the West or the United States; it is a crisis of choice 
pursued by Russia to further what I believe is a distorted view 
of its own interests, which will only lead to its further 
isolation.
    Finally, I want to thank the Congress for passing the 
Support for the Sovereignty, Integrity, Democracy, and Economic 
Stability of Ukraine Act of 2014. This act is closely aligned 
with the Administration's objectives. It demonstrates 
solidarity with Ukraine, helps to reassure our allies, and 
imposes further costs on Russia for its actions.
    Since the stakes are high and the international principles 
are so fundamental, it is important that the United States 
speak with one voice during this crisis, and I appreciate that 
we are doing so.
    Thank you very much, Mr. Chairman, and I look forward to 
your questions.
    [The prepared statement of Secretary Chollet can be found 
in the Appendix on page 45.]
    The Chairman. Thank you.
    Vice Admiral.

    STATEMENT OF VADM FRANK C. PANDOLFE, USN, DIRECTOR FOR 
STRATEGIC PLANS AND POLICY (J-5), JOINT STAFF, U.S. DEPARTMENT 
                           OF DEFENSE

    Admiral Pandolfe. Good morning, Chairman McKeon, Ranking 
Member Smith, and distinguished committee members. Good 
morning, and thank you for this opportunity to update you on 
Russian military developments.
    You just heard a review of actions taken by the United 
States, the NATO alliance, and the international community in 
response to Russia's unlawful military intervention in Ukraine. 
Russia's seizure of Crimea is a flagrant violation of 
international law, and it reintroduces into Europe the threat 
of external aggression. By doing so, Russia has set back 
decades of international progress.
    The United States military and the wider NATO alliance have 
supported our response to this unwarranted intervention. We 
have given support to Ukraine by way of material assistance, 
defense consultations, and the offer of enhanced training. We 
are reassuring our NATO allies, with whom we have Article 5 
security guarantees, by sending additional air power to the 
Baltic States and Poland, increasing our surveillance over 
Poland and Romania, and sending naval ships into the Black Sea.
    And we are helping to impose costs on Russia by halting all 
bilateral military-to-military interaction. However, as noted 
by Mr. Chollet, we are keeping open channels for senior-leader 
communications to help deescalate the crisis.
    I now would like to widen the focus of my remarks beyond 
Ukraine to discuss the evolution of Russian conventional 
military power, thereby providing context to today's events.
    At the height of its military power, the Soviet Union was 
truly a global competitor. With millions of people under arms, 
vast numbers of tanks and planes, a global navy, and an 
extensive intelligence-gathering infrastructure, the Soviet 
military machine posed a very real and dangerous threat.
    Following the breakup of the Soviet Union in 1991, that 
arsenal fell into disrepair. Starved of funding and fragmented, 
Russian military capabilities decayed throughout the 1990s.
    From the start of his term in office in 2000, President 
Putin made military modernization a top priority of the Russian 
Government. When Russia invaded Georgia in 2008, a number of 
shortcomings were noted in its military performance. This led 
the Russian Government to further increase investment in its 
military services.
    Since 2008, those efforts have had some success. Russian 
military forces have been streamlined into smaller, more mobile 
units. Their overall readiness has improved, and their most 
elite units are well-trained and equipped.
    They now employ a more sophisticated approach to joint 
warfare. Their military has implemented organizational change, 
creating regional commands within Russia. These coordinate and 
synchronize planning, joint service integration, force 
movement, intelligence support, and the tactical employment of 
units.
    Finally, the Russian military adopted doctrinal change, 
placing greater emphasis on speed of movement, the use of 
special operations forces, and information and cyber warfare. 
As noted, they instituted snap exercises. These no-notice 
drills serve the dual purpose of sharpening military readiness 
while also inducing strategic uncertainty as to whether they 
will swiftly transition from training to offensive operations.
    Today, Russia is a regional power that can project force 
into nearby states, but it has very limited global power 
projection capability. It has a military of uneven readiness. 
While some units are well-trained, most are less so. It suffers 
from corruption, and its logistical capabilities are limited. 
Aging equipment and infrastructure, fiscal challenges, and 
demographic and social problems will continue to hamper reform 
efforts.
    The United States, in contrast, employs a military of 
global reach and engagement. The readiness of our rotationally 
deployed forces is high, and we are working to address 
readiness shortfalls at home.
    And we operate within alliances, the strongest of which is 
NATO. Composed of 28 nations, NATO is the most successful 
military alliance in history. Should Russia undertake an armed 
attack against any NATO state, it will find that our commitment 
to collective defense is immediate and unwavering.
    Russia's military objectives are difficult to predict, but 
it is clear that Russia is sustaining a significant military 
force on Ukraine's eastern border. This is deeply troubling to 
all states in the region and beyond, and we are watching 
Russian military movements very carefully.
    I spoke with General Breedlove, the Commander of U.S. 
European Command and NATO's Supreme Allied Commander, last 
Friday. He is formulating recommendations for presentation to 
the North Atlantic Council on April 15th. These recommendations 
will be aimed at further reassuring our NATO allies. As part of 
this effort, he will consider increasing military exercises, 
forward-deploying additional military equipment and personnel, 
and increasing our naval, air, and ground presence. And he will 
update Members of Congress on those recommendations at the 
earliest opportunity.
    Ladies and gentlemen, thank you for this opportunity to 
address your committee. I look forward to your questions.
    [The prepared statement of Admiral Pandolfe can be found in 
the Appendix on page 51.]
    The Chairman. Thank you.
    Secretary Chollet and Admiral Pandolfe, as I mentioned in 
our opening statement, at our QDR hearing last week, Deputy 
Under Secretary Wormuth commented that, in light of recent 
events, they would have added some additional sentences on 
Russia in the QDR. I would think that a more comprehensive 
policy review is necessary.
    Can you please describe specific steps that the Department 
is taking to reexamine U.S. policy towards Russia and our 
posture in Europe? Additionally, what immediate steps is the 
Department taking to provide assistance to Ukraine to reassure 
other allies and partners in the region and to deter further 
Russian aggression?
    Secretary Chollet. Mr. Chairman, I will begin.
    As I mentioned in my opening statement, we have taken some 
very important steps immediately for our NATO partners, with 
the Baltic air policing mission, which is adding 6 F-15s, and 
then also the 12 F-16s to the Polish aviation detachment, which 
has been very warmly welcomed in both Poland and in the Balts, 
as well.
    We have also been in very close touch with our Ukrainian 
colleagues. And this goes back to when this crisis was first 
unfolding earlier this year, when Secretary Hagel had multiple 
phone calls with the Ukrainian Defense Minister at the time, at 
that point urging the Defense Minister not to get involved in 
the Ukrainian crisis. And to the Ukrainian military's great 
credit, they did not get involved in the crisis as it was 
unfolding.
    Since then, we have worked very closely with the Ukrainians 
to try to understand their needs and to try to address those as 
quickly as possible. So there was a team in Kiev last week, a 
team from the Department of Defense as well as EUCOM [U.S. 
European Command] representation, what is called the Bilateral 
Defense Commission, to meet with Ukraine to talk with them 
about their urgent needs but also the strategy that they are 
seeking moving forward.
    And we are working through some of those requests, as I 
mentioned in my opening statement. We have worked through what 
they saw as the most urgent, which is to get them some MREs, 
because their forces have been in the field for a very long 
time and need those supplies.
    In terms of your question, sir, about the QDR, it wouldn't 
surprise you to hear that I concur with my colleague's comments 
that she made last week to this committee. We clearly would 
have changed some of the tone, perhaps, of the QDR, given what 
has transpired over the last several weeks and Russia's 
egregious violation of international law.
    That said, I think the fundamental strategy of the QDR 
still holds. And things like the commitment to maintaining a 
strong technological edge, the importance and the reaffirmation 
of the transatlantic alliance and working with our strong 
partners, the commitment to build partner capacity and 
institute policies to pursue that objective, those are all 
things that we were doing before this crisis and we are going 
to certainly continue to do in the days ahead.
    And then, finally, as Admiral Pandolfe mentioned, General 
Breedlove has been tasked by the North Atlantic Council [NAC], 
NATO's governing body, to come up with a variety of new ideas 
about ways that we may reassure our NATO allies moving forward, 
and those are things that he is working through right now. And 
he is due to present those to the NAC--and then, as the Admiral 
said, as soon as possible to you--next week.
    Admiral Pandolfe. Sir, I would agree with what Mr. Chollet 
says.
    The process of assessing our relationship with Russia is 
ongoing. We continually review our strategic relationships 
within the Pentagon as a matter of course, quite frankly, every 
year, as we build the next set of plans, the next set of 
budgets, the next set of strategy documents.
    And, clearly, the actions the Russians have taken, 
described I think quite accurately as a paradigm shift, are 
causing us to look very hard at some of the assumptions which 
underlay the planning and prescriptions of the past.
    And not just in the United States, either. NATO is 
undertaking a very similar process of assessing where the 
Russians are going and where we will go as a collective 
alliance with the Russians in the future.
    The Chairman. Vice Admiral, you said in your statement, 
``Today Russia is a regional power that can project force into 
nearby states but has very limited global power projection 
capability.'' I think that is basically the same words the 
President used last week.
    By your definition, what would be a power or a nation--what 
nation would you consider has power to project, the ability to 
project power globally?
    Admiral Pandolfe. Well, sir, one important caveat is my 
statement was focusing on conventional Russian military power. 
I think it is important to note that the Russian nuclear 
arsenal is intercontinental in reach and does have, at that 
level of the employment of force, extreme range.
    Regarding the employment of conventional military power on 
a global scale, I would argue that the United States is really 
unique in our ability to operate globally. And that is largely 
a function of the alliances of which I spoke. We have the 
support, in terms of basing and cooperative training and 
operations, of a host of other nations who share our values and 
our vision for the international order.
    And not just our military technologies or people, but that 
systems of alliances and basing is what really allows the 
Western forces, with the United States at the center, to 
operate on a global scale.
    The Chairman. So the United States would be the only 
country that, take away nuclear capability, has the ability to 
operate globally?
    Admiral Pandolfe. Again, I would think, on a regular basis, 
on a routine basis, in a significant level of force, I think 
that is an accurate statement, sir.
    The Chairman. How many ships do we have in our Navy right 
now?
    Admiral Pandolfe. Well, last time I checked, it was 287. I 
am not exactly sure what it is today.
    The Chairman. And how many does Russia have?
    Admiral Pandolfe. I would have to go back and check that, 
sir.
    The Chairman. I saw something last week that they had 300 
ships just in the Black Sea.
    Admiral Pandolfe. Well, numbers of ships is certainly one 
factor, but you also, as you well know, sir, have to look at 
the tonnage of the ships, the capabilities of the ship, whether 
they are oceangoing global ships or whether they are, quite 
frankly, littoral, regional ships with much shorter ranges and 
capabilities that are geared towards shorter-range missions.
    The United States Navy today really is unique in its 
ability to operate globally and project power globally.
    The Chairman. Can you get that number back to us on the 
record, how many ships, comparing apples to apples, Russians 
have compared to our Navy?
    Admiral Pandolfe. Yes, sir.
    [The information referred to is classified and retained in 
the committee files.]
    The Chairman. Thank you very much.
    Admiral Pandolfe. Yes, sir.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    As we look at the specifics of the crisis right now, how 
would you assess the risk of Russia going further into the 
Ukraine, most likely, obviously, into the eastern Ukraine? That 
is where they have amassed troops, where we have heard in 
recent days that there are Russian nationalists within Ukraine 
that have seized government buildings and, you know, committed 
other actions. What do you think the calculation is?
    Because, obviously, the next escalation of this crisis 
would involve that. And that, I mean, certainly there is the 
long-term, you know, how do we build our relationship with 
Russia, how do we contain, you know, any global threat. But 
right now, you know, keeping the crisis from spreading is all 
about keeping them out of the eastern Ukraine.
    You know, how do you see the likelihood of Russia making 
that decision? And what can we and our allies do to try to 
discourage that action?
    Secretary Chollet. Well, Congressman, I know we have a 
closed session later, and our intelligence colleagues can 
perhaps provide a little more granularity.
    But what I would say to that is we are very concerned about 
Russia's buildup on Ukraine's eastern border. We have been very 
clear at all levels of our government, from the President on 
down, that this is a worrying development and that we want to 
see Russia deescalate and move forces out of that area.
    The events of the weekend, as you mentioned, have been very 
concerning. As the White House said yesterday, there is strong 
evidence that some of the actions taking place inside Ukraine, 
the folks were perhaps paid by the Russians. These aren't 
spontaneous demonstrations, we believe. And a move into eastern 
Ukraine would clearly be a very serious escalation of this 
crisis.
    Mr. Smith. What do we do?
    Secretary Chollet. So, what we can do. Well, first, at 
every opportunity we have, we are--including yesterday 
Secretary Kerry talked to Foreign Minister Lavrov again--making 
clear that their behavior is unacceptable and that there will 
be consequences for their actions. We have shown that there 
already have been consequences for the actions they have taken, 
and there are more to come if they were to continue along this 
course.
    So punishing Russia is clearly one avenue. The second is to 
reassure our partners and allies. We have been very clear, the 
President when he was in Europe several weeks ago made this 
very clear, our commitment to Article 5, NATO's collective 
defense commitment, is ironclad. And we are not just saying 
that, we are trying to demonstrate through our actions, whether 
it is the Baltic air policing or the Polish aviation rotation, 
that we mean what we say along those lines.
    So this is a very delicate situation. It is very 
concerning. I don't want to try to sugarcoat it at all, because 
Russia has a tremendous amount of capability right now deployed 
on Ukraine's border. And we are watching it very, very closely.
    Mr. Smith. Let's say--just one final question, because most 
of the questions I have would be better for the classified 
session.
    Let's say that Russia goes into the eastern Ukraine. In 
essence, we wind up, you know--Ukraine winds up probably being 
split in half, or some things that are somewhat similar, 
although on a grander and more problematic scale than what 
happened in Georgia in 2008, where you have two provinces that 
are now effectively part of Russia. Now you have a situation 
where you would have a much larger country, effectively, part 
of that. What do you think Putin's long-term vision is beyond 
that?
    I know we are very concerned--I met with a consul from 
Lithuania back in Seattle over the past week. You know, they 
are very concerned about what Russia would do there. What do 
you think Russia--because, obviously, it is a whole different 
step when you go into a NATO country. I mean, that would 
basically mean war.
    Do you think Putin understands that and would be limited to 
the Ukraine? Do you think there is a risk that there are other 
places? And are there other places, other than the Baltic 
nations, that Russia may have designs on that we need to be 
worried about?
    Secretary Chollet. Well, sir, I always hesitate to try to 
put myself in Putin's head, but what I can say is that Russia's 
behavior clearly seems to be motivated by a sense--and I 
believe it is a distorted view of their own interests--that 
they are better off having client states around them that are 
completely beholden to Moscow.
    We don't have that view. We believe that it is up to the 
countries around Russia itself to decide their own destiny. 
Russia clearly has interests, legitimate interests, in its 
neighborhood, but the way it is seeking to pursue those 
interests is deeply counterproductive, I believe, to what I 
think is its own interests, but also a clear violation of 
international law and absolutely unacceptable.
    So how far this goes, I don't want to speculate. That is 
why what we are doing is to make very clear to Mr. Putin and to 
his entire leadership that their behavior is unacceptable, 
their actions are unacceptable, and that there will be 
consequences for actions they have already taken or any further 
actions they may take.
    Mr. Smith. What are the most important consequences, do you 
think, that would show that Russia is paying a price for this 
that we have taken or will take?
    Secretary Chollet. I think, sir, the main are economic. And 
that is why we have focused so much on the sanctions initially. 
The Russian economy is distorted, itself, mainly through 
petrochemicals. And we have both tried to target particular 
individuals, obviously, but also the President now, through 
Executive order, has the ability to look at sectoral sanctions.
    Now, as he said in his statement about 2 weeks ago on this 
subject, when we get into that neighborhood of actions, those 
are things that could affect us. And we want to be sure that we 
are smart about the way forward and that we aim before we shoot 
when it comes to sanctions. But I think, clearly, that is the 
pressure point that will have the greatest effect on Russian 
perceptions.
    Mr. Smith. Thank you.
    I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Admiral, I want to pursue, kind of, what the chairman was 
talking about: how big a deal this is, essentially.
    And your responsibility is plans and policies for the 
Department of Defense across the whole world. I think most 
people assume that we didn't really have to worry much about a 
European war anymore, that the economic integration had made 
that a thing of the past.
    You answered the chairman saying something about a paradigm 
shift, at least with our relations to Russia. But can you 
expound a little bit about how big a change this is or is not, 
related to our national security interests when you look at it 
worldwide? How big a paradigm shift is this for us?
    Admiral Pandolfe. Well, this is a big deal. I mean, the 
presumption of our relationship with Russia in the post----
    The Chairman. Admiral, can you speak right into the 
microphone, please?
    Admiral Pandolfe. I said this is a big deal. The 
presumption of our relationship with Russia, the foundation of 
our relationship with Russia, was that they were a cooperative, 
emerging power that was buying into the international order, to 
include the laws which govern behavior within the integrated 
economic and legal system.
    Their actions, both in Georgia and most recently in Crimea, 
have clearly indicated that they have limits to the degree to 
which they are willing to accede those rules. And they are 
challenging the international order, which most nations rely on 
for their security and for their prosperity.
    So, clearly, it is a paradigm shift, as the words have been 
used by a number of leaders. And to Chairman McKeon's point, we 
are reassessing the way forward with the Russians.
    I do think, however, we have to keep it in global 
perspective, as well. As noted, Russia is an important country 
and it is a regional power, but we have other interests 
throughout the world which we also must continue to pay 
attention to. And we must balance our energies to maintain 
security and stability not just in Europe but in the Middle 
East and the Far East, as well. And, quite frankly, I think, 
working with our allies, that is exactly what we are doing.
    Mr. Thornberry. But wouldn't you also agree that, in those 
other parts of the world, they are watching to see what happens 
here, how we handle this? So if you are North Korea or Iran or 
China, you are watching to see how the United States responds 
to this Russian incursion. And the potential is that those 
other places in the world are going to get more dangerous, not 
less, if they think we have an anemic response, right?
    Admiral Pandolfe. I think others are watching, and they are 
watching not just the response of the United States but the 
response of NATO, the response of the European Union, the 
response of the United Nations, and the entire system of 
international states, as is threatened by the actions of, in 
this case, Russia. And they are looking to see that the cost 
that we are threatening to--that we have imposed thus far and 
we are threatening to impose further should this aggression 
continue.
    Mr. Thornberry. Well, I guess that leads me to wonder 
whether adding a few sentences to the QDR is enough of a 
reassessment. If it really is a paradigm shift, if it is that 
big a change, isn't it more logical that we need to make a 
bigger reassessment of our own capabilities, how much we spend, 
what our own approach to these security issues are?
    Again, I think of it, especially from your view, not only 
what happens in Ukraine, but what happens in North Korea and 
Iran and the South China Sea and all these other places around 
the world.
    Admiral Pandolfe. Sir, as I mentioned in my first answer, 
the process of assessing risk, of allocating forces, and 
investing in relationships is an ongoing process. It never 
stops. It is shaped in each and every day by the actions in the 
world around us. And, clearly, the actions of Russia of late 
will impact our assessments as we move forward in those 
assessments.
    Mr. Thornberry. Well, my last question is, do you think our 
process of reassessment is keeping up with the pace of events 
around the world?
    Admiral Pandolfe. I do. I think that we have a concerted 
and disciplined effort to try to measure risk. And we work very 
hard at it with the intelligence communities, with our 
colleagues, the State Department, the Office of Secretary of 
Defense.
    And I think, as I mentioned a moment ago, it is a 
continuous process. We adjust as we go. But I think, 
fundamentally, the strategy as prescribed in the QDR is correct 
and that they have done a very nice job of looking around the 
world at the contending interests and values.
    Mr. Thornberry. Okay.
    I yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, thank you very much for your 
testimony today and your service to our Nation.
    I would like to start by going back to the chairman's 
question about Russian ability to project global power. And 
what is the current status of their aircraft carriers and their 
battle groups?
    Admiral Pandolfe. I would like to start by saying, in the 
closed session in an hour or so, there will be an intelligence 
official whose specialty is this kind of question.
    My understanding, having operated in 6th Fleet up until 
about 6 months ago, is that the Kuznetsov, which is their last 
remaining carrier, is operational. It has a limited air wing of 
a few airplanes, if I remember correctly, something less than a 
dozen, and that it has periodically deployed to the 
Mediterranean and then come back to its northern Russian bases.
    Mr. Langevin. Very good. Thank you, Admiral.
    Let me turn to something else. In January, Director Clapper 
stated that, and I quote, ``Following the measured improvements 
to Russian military capabilities in the past year, it is 
setting its sights on the long-term challenges of 
professionalization and rearmament. The military in the past 
year has taken an increasingly prominent role in out-of-the-
area operations, most notably in the eastern Mediterranean but 
also in Latin America, the Arctic, and other regions, a trend 
that will probably continue,'' end quote.
    He also stated, again I quote, ``Moscow is negotiating a 
series of agreements that would give it access to military 
infrastructure across the globe,'' end quote.
    Could you provide any additional details about Russia's 
ambitions in these out-of-the-area operations and 
infrastructure access initiatives, and particularly whether and 
how those have changed after Russian occupation of the Crimea? 
And, again, further, what should be the United States' 
response?
    Secretary Chollet. Well, sir, I can start. And as the 
Admiral said, I know in the closed part of this hearing today, 
our intelligence colleagues can provide a little bit more in 
terms of what Director Clapper was talking about.
    Again, as the Admiral said in his opening statement, the 
Russians have embarked on a military modernization effort. It 
is something we have watched very closely. It is something that 
they started after the 2008 Georgia war and the shortcomings 
that they perceived in their military at that time.
    I think we have seen some of the effect of that 
modernization, clearly, in Ukraine, particularly the special 
forces at work. And Russia has been, as you noted and as 
Director Clapper was quoted as saying, has been working to 
broaden out as much as it can, but still within a region. And I 
think its power projection is not global right now, but whether 
it is in the Arctic or whether it is in the Med, they are 
clearly trying to expand out.
    That said, they are limited in what they can do. Despite 
their modernization efforts, they have tremendous challenges in 
their military in terms of the professionalization of the 
military and in terms of the demographics in their country, as 
well.
    So, as I said, it is something we watch closely and we 
don't take lightly and we are focused on.
    Admiral Pandolfe. Yes, sir, I would agree with that.
    From the reports I have read on their efforts toward 
professionalization and rearmament are that they have had some 
success, but it has been also mixed success in terms of the 
larger force. The force has gotten smaller; it has been 
streamlined. But as I understand it, the readiness is uneven, 
and the degree to which they have professionalized their 
military is incomplete. Nonetheless, they continue to work 
toward those goals. And they are long-term goals, as I 
understand it, for the Russian military.
    In terms of out of area of operations, my observation is 
that they are relatively limited. They have operated heavily in 
the eastern Mediterranean in support of the Syrian Government, 
but, beyond that, I think that I would describe them as 
periodic and limited in scope.
    Mr. Langevin. Thank you, Admiral.
    Turning to NATO, how have interactions within NATO changed 
since Russia's invasion of the Crimea? And with the show of 
aggression by the Russians, do you feel that it is more likely 
that more NATO member countries are going to begin to meet 
their treaty obligations for defense expenditures?
    Secretary Chollet. Sir, the NATO consultations have been 
very intense. I don't know that--I wouldn't characterize it as 
a change. I would describe it more as an intensification of 
NATO meetings and engagements, in addition to, as I mentioned, 
more exercises. So I think that this has shown, this whole 
crisis has shown, the value of the strong transatlantic 
alliance and the investment we have made over many, many 
decades into NATO.
    I hope--and we have a NATO summit coming up in Wales this 
September--I hope that this crisis is a proof point and will 
provide an impetus for those members who are not spending the 
kind of resources we would like to see on defense to spend 
more. But this has been an ongoing challenge we have faced for 
many years, in terms of getting more European governments to 
step up.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Mr. Secretary, I am like most Members here in this 
committee; I have listened to testimony for the last 3 months 
from the service chiefs about all the problems facing our 
military, and this is going to bring me to my question in just 
one moment.
    Mr. Putin obviously has been listening to the testimony by 
our service chiefs, as well. And even Secretary of Defense 
Hagel, who I have great respect for, has made comments that we 
are going to have to change the way that we organize our 
military and their functions and their responsibilities.
    My concern--and I hear this back in my district, which is 
eastern North Carolina, the home of Camp Lejeune Marine Base 
and a couple of other bases--is that here we go again. The 
Nation--we are what is called a debtor nation. We have to 
borrow money, primarily from China, to fund our debt. And under 
George Bush, we raised the debt ceiling seven times in the 8 
years that he was President of the United States. Under 
President Obama, we have raised the debt ceiling five times--
seven times in 5 years.
    This is the point I am trying to make. I hope in your 
discussions with primarily the Germans and the French and the 
Brits, I don't think that they have been as concerned or as 
engaged publicly--and maybe you can reassure me that I am 
wrong--in the fact that this primarily is their fight.
    Now, I understand that we have these treaties, and I 
understand the role of NATO. And I do support NATO, by the way. 
But here we go again in trying to take the lead, so to speak, 
on this problem in Europe. And I think that, quite frankly, 
sometimes, instead of being the leader, we should be supporting 
these other nations, let them take the lead, let them be the 
ones that say to Putin, if you go any further, you are going to 
see the German troops or the French troops or the Brits.
    Can you respond and give us any inside feelings, if not 
policy, but inside feelings, that they understand that this is 
their responsibility more than it is America's responsibility? 
And we want to be a team player, but we don't want to be 
captain of the team.
    Secretary Chollet. Sir, great question.
    First, I would like to say, I believe U.S. leadership 
remains indispensable. NATO is a collective security alliance; 
there are 28 partners. But we are the most consequential and 
important partner of that alliance.
    But, second, I would say the Europeans clearly have close 
interests in what is happening in Ukraine and Russia's 
behavior. It is just in their neighborhood, it is much closer.
    And the Europeans have stepped up in this crisis. 
Chancellor Merkel, for example, of Germany has been on the 
phone constantly with Putin and other senior Russian officials 
to make the very same arguments we have been making about the 
unacceptability of their actions. The EU, like the United 
States, the EU has stepped up in terms of sanctions, 
sanctioning Russian officials and other close allies of Putin 
in Moscow.
    That is absolutely critical, because the ties between 
Europe and Russia are much stronger than the ties between the 
United States and Russia. So for any sanction to be meaningful, 
in terms of trying to get the attention of Russian officials, 
Europe has to be absolutely involved.
    That is why, when President Obama was in Europe several 
weeks ago, he had a G-7 meeting on the margins of the Nuclear 
Security Summit and also very important talks in Brussels and 
then later in Rome about this crisis.
    So I think that you are absolutely right, Europe has to be 
a part of this. I wouldn't say it is more their concern than 
ours. I would say it is our collective concern.
    And Europeans are stepping up. I can provide for you--I 
don't have it off the top of my head. I have listed for you 
several examples in which the United States is contributing 
capabilities in Poland or the Balts to help reassure those NATO 
partners. The Europeans are doing so, as well. And we can 
provide you with some specifics on what other countries are 
doing to help reassure those countries that are most concerned 
about Russia's behavior.
    Mr. Jones. Mr. Chairman, before I close--I got 29 seconds--
I hope that the Administration--we were surprised, as Members 
of Congress, when we took military action against Libya. And I 
hope that if the Russians cross any line that would be of great 
concern to our country, that the President and his 
representatives would come to Congress and enlighten us as to 
what they are concerned about.
    So I ask you, sir, to make sure that that message is passed 
back to the Administration.
    Thank you.
    The Chairman. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to hear your insights on this, 
especially understanding that what has gone on in Ukraine is 
clearly not just about Ukraine and that we strategically really 
need to look at this with what Putin's end state is and that it 
is something far broader.
    Mr. Chollet, you mentioned the biggest consequence--or the 
biggest cost that we can affect for Russia is its economy. But 
given the fact that, really, over a long period of time, 
strategically, they have distributed their energy supplies and 
really gotten to a point where they have a lot of leverage, 
what kind of consequence, realistically, can we set in the 
short term that will be meaningful and get a strong message to 
Putin without having unintended negative consequences on us?
    Secretary Chollet. Well, as you mentioned at the end, that 
balance between ensuring we can have a consequence, 
particularly in the economic realm, that would be meaningful to 
Russia but not blow back on the United States is tricky 
sometimes.
    I think that the economic sanctions we have already 
announced are going to have an effect. I think, as the 
President has outlined, we could do more along those lines if 
Russia's behavior continues along the course it has been on.
    Third, I would not underestimate the impact of Russia's 
diplomatic isolation. As we saw just several months ago with 
the Winter Olympics, Mr. Putin very much enjoys the 
international spotlight. And he was planning this summer to 
host the G-8 [Group of Eight] leaders in Sochi. That meeting 
will not happen. And Russia is finding itself more and more 
alone in the world. And that will have an effect, as well.
    So I think that there are steps we can take, there are 
steps, as I mentioned in the previous question, that our 
European allies can take and have taken to ensure that Russia 
feels the pinch economically and the consequences for its 
behavior but also is isolated in the world.
    Ms. Gabbard. With regard to the military capabilities that 
you discussed, Russia's developments and really looking towards 
a more mobile special-force type operation, what can be done 
for Ukraine and possibly other bordering countries?
    Knowing that a tank-to-tank kind of direct, one-on-one type 
of conflict is not realistic in any circumstance, how can we 
assist Ukraine to better defend itself using some of these 
similar unconventional means?
    Secretary Chollet. We have had a pretty modest defense 
relationship with Ukraine over the years. It is a little over 
$4 million per year in FMF [Foreign Military Financing] that we 
have provided them. So the baseline we are working from is 
relatively small.
    That said, as I mentioned earlier, we have had ongoing 
consultations with the Ukrainians, not just about the urgent 
crisis of today but their needs of tomorrow and how they are 
working to reform and modernize their own military. That starts 
mainly in the nonlethal space, and it is things like helping 
with logistics. IMET [International Military Education and 
Training] has been very important for them, the education and 
exchanges, as they have tried to professionalize their 
military.
    So there are ways that we can help. And we are actively 
working through those ideas with them, understanding that we 
are starting from a pretty modest baseline of defense support 
for them.
    Admiral Pandolfe. I would like to concur with that. Defense 
consultations were held in Kiev last week, and they looked at, 
amongst other things, you know, strengthening their defense 
establishment and building a program of training and exercises 
to help provide the kind of skills that you are referring to.
    Ms. Gabbard. Good. I look forward to hearing more about 
that and, also, really, what kind of timeline is being looked 
at, considering what is happening, kind of, the updates on a 
minute-to-minute basis in eastern Ukraine. MREs are great and 
necessary and helpful, I am sure, but I am sure there are also 
many other ways that we could be of assistance in helping them 
or empowering them to be able to defend themselves.
    Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank both of you for being here today.
    I have visited Russia a number of times, and I have been 
encouraged by the advance of free enterprise, of what I saw to 
be a level of democracy, but it is sad to see this 
extraordinary culture reverting to one-man control.
    The benefits of economic freedom for Russia and its 
citizens are being undermined by isolating itself from being a 
law-abiding nation which is not trustworthy at home or abroad, 
with uncontrolled corruption destroying jobs.
    With that in mind--and, again, it is really disappointing, 
because I just had such high hopes. And, indeed, we have a 
significant Russian-American population in my community that is 
truly in distress that things are going so badly at home with 
corruption.
    With that in mind, what are our NATO allies doing in 
Central and Eastern Europe and the Baltics, reacting to 
Russia's aggression toward Ukraine? What are we doing to assure 
our allies and partners that the United States and NATO remain 
committed to deter aggression and preserve territorial 
integrity, in particularly the Baltic republics? What are we 
doing?
    For each of you.
    Secretary Chollet. Sir, first, I would just, on your 
opening comment, just to comment on that, I agree with you that 
Russia is not the Soviet Union----
    Mr. Wilson. No.
    Secretary Chollet [continuing]. And Russia has made great 
strides as a country and as a people over the last 20 years 
since the end of the Cold War. And we can see the great 
potential of that society. And that is why the events of the 
last several months are so disappointing and so alarming.
    On to the question specifically about reassuring our 
partners, our close NATO allies, Poland and the Baltics, are 
very concerned about what is happening in Ukraine. This is 
something that--this is a nightmare unfolding for them.
    And they are asking for our help. And that is why we have 
taken the steps we have already taken, in terms of deploying 
some assets there for exercises and training, to both send a 
message but also, on the ground, help the capabilities of our 
partners. That is why General Breedlove has been tasked by NATO 
to look at further measures that we, as an alliance, can take, 
not just the United States but the United States and our NATO 
partners can take, to further reassure our allies.
    And we have also stayed in very close touch at very high 
levels. The Vice President was in Poland and the Baltics 
several weeks ago for important consultations. Secretary Hagel, 
Secretary Kerry, the Chairman, the Joint Chiefs have all been 
in touch with their counterparts in the respective NATO 
countries. Secretary Kerry was in Brussels last week for an 
important NATO session. Secretary Hagel will be going to NATO 
again in June for another important session.
    So we are trying to have a constant, ongoing dialogue with 
them about hearing their concerns, hearing their needs, and 
trying to address those as fast as possible.
    Admiral Pandolfe. Yes, sir, I would like to just build on 
that.
    So, in the most immediate sense, we have sent additional 
fighter aircraft to the Baltic States to reinforce those that 
were there previously. We have done the same with Poland. So 
there are additional aircraft flowing to both of those 
locations. There has been additional tanker support sent to 
provide greater coverage. There are NATO AWACS aircraft flying 
orbits over Romania and Poland to provide greater situational 
awareness and support for those nations, as well. So these are 
the concrete steps that have been taken thus far to reassure 
our NATO allies.
    And, as mentioned, the Foreign Ministers, when they met 
last week in Europe, directed General Breedlove to now 
formulate the next set of proposals to build on those actions 
and to come back to the NAC on the 15th. And he is doing that.
    Mr. Wilson. And, Admiral, are the borders of the Baltic 
republics and Poland well-defined and -defended?
    Admiral Pandolfe. My understanding is they are well-
defined. I would rather defer discussions of defense 
preparedness for the closed session.
    Mr. Wilson. And I just can't imagine how important that 
will be.
    But, Mr. Secretary, again, the American people need to 
know----
    Secretary Chollet. Right.
    Mr. Wilson [continuing]. That, with the drawdown of the 
American military in Europe, I am concerned that this is giving 
encouragement to Russia on its aggression.
    I am equally concerned, the last month, not only have we 
had this but we have had missile testing by North Korea. We 
have had Iran continue their enrichment of nuclear weapons and 
announce, in a visit by the Foreign Minister in Tokyo, that it 
is an illusion that they would stop. And we have had missiles 
being sent to Hamas in Gaza to threaten Israel, all in the last 
month. And, plus, China has expanded its air defense zone to 
threaten our allies in the Pacific.
    All of this, I think, is an indication of weakness. And we 
know: Peace through strength.
    Thank you very much.
    Admiral Pandolfe. Sir, before I would conclude my last 
answer, I want to reiterate that we do have Article 5 defense 
guarantees, security guarantees, with the Baltic States. That 
is clearly understood. And we will stand by those.
    Mr. Wilson. And Poland.
    Admiral Pandolfe. And Poland, yes, sir.
    Mr. Wilson. Thank you.
    The Chairman. Thank you.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    Gentlemen, the Russian military is still largely conscript.
    I am all the way over here on stage left, all the way to 
your right, the lonely person all the way over here.
    The Russian military is largely still conscript-based. Have 
we seen any changes--although they have been trying to move 
towards a more professional military, an all-volunteer force, 
they have yet to do that.
    Have we seen any increase in the size of the conscript 
call-ups? Or have there been any moves towards the mobilization 
of reserve forces?
    Admiral Pandolfe. The Soviet military was about 4.3 million 
people. The current Russian military is less than 1 million. My 
understanding is that there are some conscripts still in that 
force, but there are also a number of volunteers now.
    So there is not as much--I am not even--I don't even 
believe it is a majority conscript force any longer. So they 
have changed the complexion of the force.
    As mentioned earlier, their efforts towards 
professionalization of the force have had some success, yet, 
not total success, because they do still rely on conscripts as 
well.
    To the best of my knowledge--and we could have this 
followed up in the next session--I don't know of any changes in 
their call-ups of late.
    Mr. Enyart. It is my understanding that Russia had been 
somewhat cooperative in regard to negotiations with Iran.
    How is that progressing? Do you see a deterioration in that 
relationship?
    Secretary Chollet. We have not yet, sir. Russia has played 
a role in the P5+1 [Five permanent members of the U.N. Security 
Council plus Germany] process with Iran. Russia also, as you 
know, has been a part of the effort to get Syria's chemical 
weapons out of that country.
    And, so far, we have not seen any appreciable impact on 
those efforts as a result of our deep differences over this 
Ukraine crisis.
    Mr. Enyart. I just had, immediately prior to walking into 
this hearing, I had three Polish officers come visit me in my 
office. And they were veterans of Afghanistan, and several of 
them had served with soldiers that I used to command in the 
Illinois National Guard in Afghanistan.
    And I am certainly glad to hear you saying that we will 
stand by our NATO commitments, and I would anticipate that we 
would stand by our NATO commitments, because I assured them 
that, just as they have stood by us in Iraq and in Afghanistan 
for the last dozen years, that we would stand by our NATO 
commitments.
    As we draw out of Afghanistan, do you see that this will 
free up our hand, that is, give us greater logistics capacity, 
to otherwise respond in Central Europe or around the world, as 
need be?
    Secretary Chollet. Sir, first on Poland, I just want to 
reiterate that Poland is a terrific partner of ours. We have 
very, very close defense relations.
    Poland is one of the European countries that is stepping up 
and spending a significant amount of resources on its own 
defense and seeking to modernize its military, and that is an 
effort that we are helping them with.
    I was with Secretary Hagel in Warsaw several months ago for 
a visit, and we are looking forward to hosting the Defense 
Ministry here in Washington soon. So we are in very close touch 
with our Polish partners.
    In terms of how retrograde out of Afghanistan may help us, 
you know, that is something that we are sorting through in 
terms of having that material be freed up.
    One of the discussions we have ongoing--it is not related 
to the Ukraine crisis, but it is related to the Afghanistan 
point--is many countries around the world, not just in Europe, 
talked to us about perhaps acquiring some of that equipment as 
excess defense articles, as they are seeking to modernize and 
replenish their militaries.
    So that is something we are taking a close look at as part 
of this ongoing reassessment that the admiral discussed that we 
are constantly doing as a result of this crisis.
    Mr. Enyart. Just one final comment, as I am almost out of 
time.
    But when I was frequently in Central Europe during my 
previous occupation, I frequently told our NATO friends that, 
in my view, when we have peace in Central Europe, we have 
peace, relatively speaking, in the world. And so I think this 
clearly is a very critical situation that we have to deal with.
    I yield back.
    Mr. Thornberry [presiding]. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral, General Breedlove, the Supreme Allied Commander 
for Europe, was in town about a week ago meeting with Members. 
Loretta Sanchez and I hosted a bipartisan briefing that he 
participated in. Carol Shea-Porter was with us.
    And the commander publicly released to us that there were 
80,000 troops that constituted--that had been mobilized by 
Russia on the border of Ukraine that constituted an invasion-
ready force.
    In classified setting, he went over how he gets to that 
number and what it was constituted of, which, of course, I 
won't go into today, but he described to us, disclosed to us, 
how that number was derived.
    There are a number of other numbers that are being 
circulated. Ukraine says 80- to 100,000. The State Department 
began to say 40-. Now the Department of Defense is saying 40- 
seems to be a wild range of what those numbers are.
    Quite frankly, I trust the Supreme Allied Commander General 
Breedlove to know what he is facing, and he has publicly said 
it is 80-.
    But regardless of the wide swing of the number, Admiral, I 
would appreciate it if you would give us some description or 
understanding of the magnitude of that force. I think, quite 
frankly, that there has not been enough public discussion, and 
certainly it is something that we can discuss publicly. Google 
Earth can tell you a lot about what we are seeing.
    What is the magnitude of that force's capabilities? 
Breedlove is describing it as an invasion-ready force. What do 
you see when you look at the type of equipment capabilities 
that are being amassed on the border of Ukraine?
    Admiral Pandolfe. Well, like you, I spoke with General 
Breedlove about this, and I will leave the numbers and how we 
get to different sets of numbers for the next session, where 
the intelligence experts can walk us through that.
    But what General Breedlove made clear is it is a 
substantial force. It is a very large force. It is 
extraordinarily capable, in our estimation.
    It is a combined armed force. So you have fixed-wing and 
rotor-wing aircraft. You have armored units. You have 
artillery. You have light infantry.
    And we have seen, as part of results of the modernization 
of the Russian military, their ability to employ these 
different elements of military power in a synchronized and 
integrated manner.
    So it is a threat which we are taking very seriously. 
General Breedlove, Secretary General of NATO, and others have 
been very clear about this, and we are watching it very 
closely.
    Mr. Turner. Thank you.
    Secretary, the--there are a number of voices that say that 
we are not doing enough, Washington Post being one. This is an 
editorial from the Washington Post. It says, ``President 
Obama's foreign policy is based on fantasy.''
    The walk-off line of the editorial is, ``As Mr. Putin 
ponders whether to advance further into Eastern Ukraine, say, 
he will measure the success of U.S. and allied actions, not 
their statements.''
    This is not a partisan statement. This is the Washington 
Post. I ask that this editorial be entered into the record.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Turner. Sending MREs is basically expanding our school 
lunch program. That is the equivalency. It certainly isn't 
strong actions. I am very concerned that we are not doing 
enough to actually assist the Ukrainians in giving military 
advice and assistance.
    If Russia does go into Ukraine and the Ukraines decide and 
desire to defend themselves, certainly our advice and--both as 
to what they are facing and as to their military configuration 
would be important. Many people have called for that.
    We definitely see a Russia that has changed course. We now 
have a standing use of--authorizing use of force to Putin by 
his parliament that includes areas of Estonia, Latvia, 
Lithuania, Poland, and Romania, because he said all Russians 
that are in non-Russian territory.
    In looking at your background and working with the Dayton 
Peace Accords and Holbrooke and Talbott and being from Dayton, 
I have a high regard for your background and expertise.
    Shouldn't we be doing more? And what else can we be doing 
besides just MREs?
    Secretary Chollet. Sir, thanks for your question.
    First, I think we are doing a lot to support Ukraine. What 
Ukraine really needs badly is help with its economy. That is 
why the IMF decision was very important. That is why----
    Mr. Turner. Sir, just a second.
    With all due respect, their economy is going to be 
irrelevant if we wait a few more weeks. Right? Because they are 
just going to be----
    Secretary Chollet. Well, they need urgent help. And I think 
that the assistance we can provide, the Europeans can provide--
and we are grateful to the Congress for the assistance that you 
have decided on--is very important, number one.
    Mr. Turner. Don't you think military assistance is what 
they really need if they are going to be facing an invasion, 
advice, a description as to what is coming over the hill?
    Secretary Chollet. So, as we discussed earlier, we had a 
team in Kiev last week for defense consultation talks, a joint 
civilian-military team to talk through both what they need for 
this urgent crisis and what they need for the future.
    And they have prioritized. Nonlethal assistance first. And 
the MREs are very urgent for them. It is something that they 
need. They had troops in the field who needed it because they 
needed resupply. So that is meaningful to them that they are 
getting this.
    And we are talking through with them further requests for 
support, and that is something we will be working through in 
the coming days.
    Mr. Thornberry. The time of the gentleman is expired.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Many of the questions that--I have already been asked. I 
guess, again, I want to reiterate the point that, in our QDR, 
there was very little focus on Russia.
    If there is a rewrite of the QDR, what focus do you expect 
in that document would be placed on Russia?
    Secretary Chollet. Well, Congressman, we are not planning a 
rewrite of the QDR. That said, I think that it is--as we have 
acknowledged, if we were to rewrite it at this moment, there 
would be some--certainly some language changes because the 
world is dynamic and it is always changing and what has 
happened over the last several weeks since the QDR was put to 
press is very significant.
    But, to repeat, I think the fundamental strategy outlined 
in the QDR and the budget that the Secretary and the chairman 
have outlined before you is one that will fulfill our interests 
and help us respond to this crisis.
    Mr. Scott. Let me ask, then. It seems that a lot of the 
focus--and you keep going back to the economy and our friends 
over there in needing economic support. There is also a way to 
hurt the Russians right now.
    I mean, their economy depends on the price of a barrel of 
oil in many cases. And, you know, you have--the President 
refuses to sign the Keystone Pipeline bill that, quite 
honestly, would drop the price of a barrel of oil and 
potentially hurt Putin.
    Has that played into these discussions in any way, shape, 
or form? I mean, is--the ability to drop the price of a barrel 
of oil and what that would do to the Russians?
    Secretary Chollet. Not at the Pentagon. That conversation 
has not come up, although the discussion of how we might 
further impact the Russian economy in terms of any response to 
what Russia may do here on out is something that has come under 
discussion.
    And the President has publicly announced that he is--has 
the authority to have sectorial sanctions, which could include 
the Russian energy industry.
    But I want to be clear that those are not necessarily cost-
free exercises in terms of our own interest. So we want to be 
very careful with how we execute on something like that, but 
Russia's behavior could lead us to that.
    Mr. Scott. But sending F-16s and MREs--really, dropping the 
price of a barrel of oil would do more to--in response to the 
Russian's actions than sending F-16s and MREs, wouldn't it?
    Secretary Chollet. Well, the F-16s and MREs are more about 
reassuring our partners and showing them, in deed as well as 
word, that we have got their back, that we are committed to 
Article 5 and we are committed to working with them.
    Clearly, Russia has been riding its energy industry for 
many years now. So anything we might be able to do to impact 
its energy sector would have an impact.
    Mr. Scott. Well, what do you think--you know, what do you 
think Putin thinks belongs to him? I mean, is he trying to put 
the whole motherland back together?
    Secretary Chollet. Again, I always hesitate to try to get 
into Putin's head. He has said publicly that the collapse of 
the Soviet Union was a great historical tragedy.
    That is obviously something I think certainly this 
Administration, all of the American people, most of the world, 
disagree with.
    And Russia's actions seem to indicate a view that having 
client states around its periphery is in its interest. We have 
a very different view.
    We do not believe that decisions can be made about those 
countries without those countries involved. The Ukrainian 
people should have a choice for their own destiny.
    We don't deny that Russia has legitimate interests and a 
long history with Ukraine. It is the cradle of Russian 
civilization, after all.
    Mr. Scott. Okay. But----
    Secretary Chollet. But there is a right way and a wrong way 
to go about addressing this.
    Mr. Scott [continuing]. Isn't the key question whether or 
not Putin stops or he has to be stopped?
    Secretary Chollet. We believe that Russia's behavior at 
this point, its actions in Crimea, absolutely unacceptable, and 
there have been consequences.
    Mr. Scott. Do you think it stops----
    Secretary Chollet. Further actions, so far, we have been 
very concerned about his build-up of troops on the border. So 
far, those have not moved, but we are watching that very 
closely and making it clear that, if his actions continue, that 
there will be consequences.
    Mr. Scott. Are they moving supply lines in, though?
    I mean, obviously, when you put your troops forward, you 
have got to put supply lines in for fuel and for food and for 
other things.
    Are they pushing supply lines forward so that they can keep 
those troops that are at the front supplied?
    Secretary Chollet. Sir, if I could, I would like to bring 
that to the closed part of the session to get a greater 
description of what is going on on the eastern border.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And thanks to our witnesses for being here today.
    I want to, Admiral, if I could with you, delve into the 
whole issue of intelligence gathering.
    The recent developments with the Russian military in the 
Ukrainian crisis I think bring up some very serious questions 
about how we get information that allows us to take appropriate 
action and be out in front of things.
    So I would like to ask for your perspective, Admiral, on 
the importance of intelligence gathering and how it helps 
develop our strategy when a crisis such as the annexation of 
Crimea occurs.
    As you may know, I represent Fort Huachuca in southern 
Arizona. It is home to Army Intelligence Center of Excellence, 
which is an important aspect in our human intelligence 
capabilities. And many of the soldiers that come through Fort 
Huachuca play a critical role in DOD's [Department of 
Defense's] intelligence gathering.
    However, it seems to me that much of the current focus on 
intelligence, Admiral, revolves around technical capabilities, 
such as surveillance and reconnaissance platforms and cyber 
capabilities.
    Human intelligence, however, has long been a staple of our 
collection capabilities, accessing populations and information 
that technical approaches cannot reach.
    So given the focus on tactical human intelligence, or 
HUMINT, for the past 13 years in Afghanistan and Iraq, are the 
current HUMINT assets in the European Command's area of 
responsibility sufficiently prepared or resourced for an 
Eastern European mission set?
    And can you tell me, Admiral, how critical a role do these 
assets have in the particular situation we are here to talk 
about today between Ukraine and Russia as it continues to 
develop? Admiral.
    Admiral Pandolfe. Well, it is very difficult to talk about 
the specifics of intelligence in an open hearing. I would be 
happy, again, to take this further in the closed hearing.
    Writ large, however, clearly intelligence at all levels--
strategic, tactical--of all types--technical, human--is very, 
very important and it has to be worked into a holistic view of 
not only what is happening, but what will happen next. And that 
is an art as well as a science. And we work at it very hard.
    So I will leave it at that, but I think we can pick this 
theme up again later and give you more details of--that answer 
your specific questions.
    Mr. Barber. Yeah. I really would like to have that further 
briefing. I understand that some of this cannot be discussed in 
an open meeting--or an open hearing.
    But, you know, there have been a lot of criticisms. Did we 
know what was going on? Did we know that troops were amassing? 
What did we try to do? Were we positioning ourselves? And if we 
could get to that in another setting, that would be very 
helpful.
    And I guess the final question, Admiral, is: Do you think 
the DOD budget cuts, as a main concern of all of us, the 
services' personnel reductions, our Nation's strategic pivot to 
the Asia-Pacific region, and the drawdown of forces in 
Afghanistan--could they, do you believe, have a negative effect 
on our ability and our missions for HUMINT collections 
capabilities for the Eastern European area or perhaps could 
they enhance it?
    Admiral Pandolfe. That is a very specific question 
regarding the impact of a wide set of efficiencies on a 
specific area. I don't know of how these cuts would necessarily 
impact that particular area in a negative way.
    I can research that for you, however, and come back--take 
that for the record and come back with a more focused answer.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Barber. If you could, that would be helpful.
    I am concerned, as I think many Members are, that it 
doesn't--a month doesn't go by that we don't have another 
front, it seems, opening up.
    You know, we have been dealing with Afghanistan, Iraq, 
Africa, the Middle East, of course. And now we are dealing with 
Russia and the Russian Federation, apparently, Putin's ambition 
to rebuild the Soviet Empire.
    And now our attention has to--must turn to the European 
theater and the European region and how we staff it on many 
levels not only in terms of troops on the ground and air assets 
and Navy assets, but how we inform ourselves about what next 
move this empire builder might have.
    So it would be helpful if we could get a sense of where you 
are headed, given what has happened in Crimea, which I think 
most people 6 months ago would not have imagined would have 
been going on.
    So how are we positioning ourselves to deal with his future 
ambitions would be helpful to know.
    Admiral Pandolfe. Yes, sir. I will get back to you on that.
    Mr. Barber. Thank you, Mr. Chairman.
    I yield back.
    The Chairman [presiding]. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Secretary Chollet, the Russians are flagrantly in violation 
of the Budapest Memorandum concerning Ukraine. Russia is a 
serious, strongest supporter and a consistent ally of Iran.
    President Obama immediately after his election cancelled 
the third site missile defense plan with Poland and the Czech 
Republic, which pleased Putin.
    How could President Obama's and Secretary Hillary Clinton's 
highly touted Russian reset have failed so spectacularly? What 
did you do wrong?
    Secretary Chollet. Sir, I think even though we are very 
disappointed with where we are with Russia today, we saw some 
tangible impact of our policies in the first several years of 
this Administration under a different Russian leadership with 
President Medvedev, but the work with them on Iran, for 
example, was something that was very important. We also 
codified a new arms reduction agreement on nuclear forces, 
which was very significant.
    And even since then, we have seen Russian cooperation in 
other areas, for example, on Syria in the chemical weapons 
destruction process, which continues. Even despite the 
turbulence of this crisis and the U.S.-Russian relationship, we 
have been able to maintain our cooperation on that very, very 
important issue.
    So while, I think, even the President and everyone involved 
in the U.S.-Russian relationship over the last several years 
are not happy with where we are today, we do believe that we 
had some successes early on in this Administration.
    Mr. Lamborn. Well, I would really question a lot of that 
assessment.
    And let's talk about the New START Treaty. According to 
recent press reports and open sources, the Russian Federation 
is in violation of the Intermediate-Range Nuclear Forces 
Treaty, or INF, which this Administration has known about for 
some time, but has chosen to remain quiet about.
    Why is the Administration covering up Russian INF treaty 
violations? Is it an attempt to protect the deeply flawed New 
START Treaty?
    Secretary Chollet. Sir, we have--we take our treaty 
obligations very seriously and we expect all of our--those who 
enter into a treaty to take their obligations very seriously. 
So the INF issue is something we have been studying very 
closely.
    I know that colleagues of ours have been talking to the 
Congress throughout this process, and I know that the State 
Department, which is the lead in our interagency for this 
effort, will be issuing a report on this matter soon.
    And perhaps some of the specifics you have referred to we 
can get into in the closed session later today.
    Mr. Lamborn. Well, I hope that what you did wrong wasn't to 
think that authoritarian regimes respond to reason rather than 
to strength. I think they respond to strength better than to 
reason.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I thank you so much for being here, gentlemen.
    I am a little concerned about our allies' contributions in 
NATO itself. NATO clearly has a significant role to play in 
this crisis. But I am concerned about its ability to leverage 
its limited capabilities that it has.
    In 2013, I believe, only three European nations--Estonia, 
Greece, and the United Kingdom--contributed the required 2 
percent or more of their GDP [gross domestic product].
    Another three nations--France, Turkey, and Poland--each 
gave 1.9 and 1.8 percent, respectively. We contribute 
approximately 70 percent of the NATO budget.
    Could you explain for us the current state of our NATO 
allies' military and the current role they are playing in the 
Ukrainian crisis and whether they can respond decisively, given 
these levels of commitment?
    Secretary Chollet. Ma'am, you have highlighted a great 
concern of ours and something we have been working on for many 
years, as you know, trying to work with our European partners 
to spend at least 2 percent of their GDP on defense and to try 
to spend that--spend those resources wisely.
    As I mentioned in a previous question--and some specifics 
we can follow up with you on after this--it is not only the 
United States that have been contributing some capability to 
theater in the past several weeks in response to the Ukraine 
crisis as a way to reassure our partners. Other countries--the 
Brits, the Germans, the French, the Poles themselves--have as 
well. And we can give you some of the specifics on that as part 
of followup.
    But it doesn't--it doesn't obviate the basic point that you 
made, which is there is a capabilities gap that is widening. It 
is something that many Secretaries of Defense, going back at 
least to Secretary Gates, have talked about. And it is one of 
the big pieces of business we are going to try to address this 
summer--or this fall, in September, at the Wales NATO Summit, 
how, moving forward, we can ensure that the NATO alliance 
collectively, each member in its own way, can be stepping up 
meaningfully to deal with security threats as they come our 
way.
    Ms. Duckworth. One of the components of this is the 
relationship through the State Partnership Programs, something 
that has been incredibly important and something that EUCOM 
commander, AFRICOM [U.S. Africa Command] commander, Special 
Forces, have all said has been a vital part of their 
operations. Especially in the case of Poland, the State of 
Illinois has been in the State Partnership Program with Poland 
for almost 25 years now. It is one of the first in the Nation 
to do that.
    That is a very special relationship. That is, you know, I 
watched my Polish counterparts grow up as I grew up in the 
military together. And I was--I would think that, as nations 
like Poland are starting to step up to take the lead among NATO 
allies with what is happening in the Ukraine and in that region 
of the world, that that State Partnership Program would be even 
more important as we move forward.
    Can you speak a little bit to the program and how you see 
it changing or growing or its role in this crisis.
    Secretary Chollet. The State Partnership Programs we have 
with Poland--and I am very familiar with Illinois' great 
cooperation with Poland over many years--but throughout Central 
and Eastern Europe have paid great dividends over the years, 
and these are extremely important relationships to our partner 
countries.
    Every single Defense Minister that comes into the Pentagon 
that Secretary Hagel sees will mention the importance of the 
State Partnership Program that they have, and often, as you 
know, these Defense Ministers, when they visit Washington, will 
also visit the State where they have a partnership.
    And it is not just something that--where they have helped 
with training and exercises, but they have deployed in the 
field together in places like Afghanistan.
    So I think it was with a great vision and foresight several 
decades ago that the State Partnership Program was established. 
It is something that we deeply believe in, and work to augment 
and support in any way we can.
    Ms. Duckworth. Thank you.
    What type of missions are our allies, the NATO allies, 
performing right now? And are they adequately equipped to 
perform these missions effectively in this region as part of 
NATO and how are our allies forces----
    Secretary Chollet. And this is in terms of the Ukraine 
crisis?
    Ms. Duckworth. Yes.
    Secretary Chollet. Well, as I said, we can get you some 
specifics on exactly what every country is contributing in 
their own way. And I guess I will stress in their own way. They 
are capable with what they are contributing. I think, overall, 
we would like to see more capability within the alliance across 
the board.
    But it is not just the United States that has been stepping 
up in the last several months. Other of our closest partners, 
the Brits and the Germans in particular, have been working in 
their own way, but also along the similar lines of us. It is 
about exercises. It is about training and working with the 
Balts and the Poles in particular to try to reassure them.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you all for being here.
    Admiral Pandolfe, thank you for your 35 years, I think now, 
of service to the cause of freedom.
    Supreme Allied Commander General Breedlove recently stated 
in regard to the Russian violation of Intermediate Range and 
Nuclear Forces Treaty by testing a ground-launched cruise 
missile--and he said, ``This is a militarily significant 
development. Weapon capability that violates the INF that is 
introduced into the greater European landmass is absolutely a 
tool that will have to be dealt with. It can't go unanswered.''
    The recently released QDR mentions cooperation with Russia 
10 times to include further reductions in our nuclear 
deterrent. While it obviously was drafted before the events 
unfolded in Ukraine, it was drafted with full knowledge of the 
Russian INF treaty violations.
    And, further, the Administration has succumbed to Russian 
objections that halted the missile defense field planned for 
Poland and a radar site in the Czech Republic.
    And given all of the present events, I mean, I am wondering 
what plans or capability this Administration has, Mr. Chollet, 
to counter this Russian--I mean, other than perhaps threatening 
to do to the Russian economy what they have done to ours. I 
mean, that is a little drastic.
    But what, in terms of military capability, do we have 
arrayed there that would be any deterrent to the Russian 
efforts there, again, given these comments I have just made?
    Secretary Chollet. Well, Congressman, we have significant 
military capability in the European theater, but, also, 
capability elsewhere that could be surged to the European 
theater in case we were in a situation where we were 
implementing our Article 5 commitment to the NATO alliance, the 
collective defense commitment that we take as a member of NATO.
    So--and we have been very clear with the Russians that we 
take Article 5 seriously, that we are unwavering in our support 
for our European partners.
    And we have tried to demonstrate that unwavering support 
through several of our actions, including the deployment of 
some aircraft to the Baltics and Poland in particular, which is 
very significant for those countries and has been warmly 
welcomed and has gotten a lot of attention.
    And we are considering further steps we may take to 
reassure those partners and other Central and Eastern European 
partners, and that is an effort that General Breedlove has 
undertaken. And we expect in the next week or so he will have 
some more concrete ideas that he can share with us.
    Mr. Franks. Well, I won't count on that except to say that 
it appears that Mr. Putin hasn't gotten the memo.
    Prior to the invasion of Crimea, Russian forces were 
obviously very prepared. They were trained. They were ready for 
the mission. And, meanwhile, NATO forces were not.
    Has this Administration arrayed forces that would be the 
kind of deterrent to Russia in that region that--sort of a 
follow-on to the question.
    But, more importantly, how has the budgetary limitations 
that may be affecting our force posture in the EUCOM--how have 
you proposed to try to address that?
    Secretary Chollet. And, sir, I would say it wasn't as 
though we were unprepared. Ukraine, of course, is not a member 
of NATO. But the NATO alliance----
    Mr. Franks. But we have that little Budapest agreement with 
them. I mean, you know, it is not like--I am sort of astonished 
that we have stepped back from that. I mean, of course, Russia 
has done so in an even more dramatic fashion.
    Secretary Chollet. Yeah. And it wasn't an Article 5 
agreement where there is a commitment----
    Mr. Franks. So it really wasn't that big a deal. Right?
    Secretary Chollet. Oh, no. It was a very big deal. And the 
fact that Russia has violated every letter of that agreement is 
a huge concern for us.
    But we have been working very closely with our NATO 
partners to ensure that they have the capability that they need 
and that, if necessary, we augment that capability with our own 
to make clear that the Article 5 commitment holds.
    The budget environment has clearly had an impact around the 
world on the U.S. military. That is no secret. And that is why 
we have sought to try to do some innovative things, for 
example, these rotational deployments that we launched several 
years ago in Poland where F-16s and C-130s will rotate through 
Poland, will exercise with our Polish partners, will train with 
them, and then rotate out.
    It is not a permanent presence, but it is something that, 
particularly in this budgetary environment, pays great 
dividends moving forward.
    So we have augmented that as a result of this most recent 
crisis, and we are exploring ways to further develop exercises 
along those lines.
    Mr. Franks. Admiral Pandolfe, would you give us just your 
best insight as to what this committee and the country's 
response should be related to the Ukraine crisis.
    Admiral Pandolfe. I think the courses of action laid out by 
Mr. Chollet make great sense. I mean, clearly, we want to 
continue to provide assistance to Ukraine, and we are doing 
that primarily by economic avenues.
    But we are also considering--``we'' being the 
Administration--other requests that they have. We are 
reinforcing our NATO allies to assure them of their security, 
and we are making clear to the Russians that their actions are 
going to cost them and their people and their future 
significantly.
    I mean, their economy is now intertwined in the global 
economy. It is not the Soviet Union. Their stock market is down 
significantly. They can't get investment into their energy 
fields, which is how they generate their income. They can't get 
people to buy their debt. I mean, the future of Russia is going 
to suffer because of the actions of this government.
    We have made that clear and we have made clear that there 
is more to come--much more to come of a more serious nature 
should they continue this aggressive action contrary to their 
promises and to international law.
    Mr. Franks. I yield back.
    Mr. Nugent [presiding]. The gentleman's time is expired.
    Mr. Smith is recognized.
    Mr. Smith. Thank you, Mr. Chairman.
    I just want to explore a little bit this option--or this 
notion that, you know, there must be something more that we 
could do that could cause Putin to change his mind, because I 
think we all share that frustration.
    He is making decisions that, as you have stated, do not 
appear to be in the best interest of his own country, certainly 
threatens stability. We wish we could just make him stop.
    So I have a little bit of a preamble here, but then I have 
a question about, you know, what more could we be doing. 
Because I do want to challenge a little bit this notion that 
somehow, you know, aggression always responds better to 
aggression than appeasement.
    I think that is what has led to many, many wars, is the 
notion that we always have to ramp it up in order to show the 
other side that we are serious and then, of course, the other 
side is thinking, ``Well, we have to ramp it up, too, in order 
to show we are serious'' and pretty soon you are at war.
    I mean, you can look at World War I and that is exactly 
what happened. Nobody wanted to appease anybody and, at the end 
of the day, they said, ``Well, we have made this commitment. So 
we just got to do it'' and millions of people died and there 
was a horrific impact on Europe.
    And then, of course, after World War I, you know, we could 
not possibly have been more aggressive with Germany after they 
were defeated. You know, we sort of pounded them economically 
and in all manner of different ways and we all saw how that 
turned out.
    So this notion that, if we are somehow just tough enough 
with an irrational adversary, that will lead to good things, is 
one that I always want to make sure does not stand unchallenged 
because it can lead to some very, very bad results.
    Now, further, in dealing with Russia specifically, many of 
the Russia experts that I talked to back in the 1990s at the 
University of Washington and elsewhere felt that our decision 
to expand NATO was one of the things that made Russia feel 
insecure and sort of pushed them towards Putin and made Putin's 
argument easy. ``See, the West is coming for us.''
    Now moving into Eastern Europe and sort of caused that 
backlash of the strength we showed in expanding NATO and then, 
to some degree, arming some of the former Soviet satellite 
states, you know, led to the reaction of Putin and his 
leadership.
    Now, I am not suggesting that there is any sort of easy way 
to do that. I just want to counter the notion that somehow, if 
you just show strength, this all goes away. There is very, very 
little historical precedent for that being true.
    So with that as sort of a preamble, what would we do right 
now?
    You know, there is frustration on the panel and everyone 
else. ``We need to do more. If we just did more, if we showed 
we were serious, then Putin would turn back around.''
    I do always like to remind everybody that, you know, the 
U.S. military was never stronger than it was in 2008. We--you 
know, $700 billion a year we were spending. I think, at that 
point, we were spending more money on our defense than the 
entire rest of the world combined.
    We had just invaded two countries and deposed their 
leadership, and Putin went in and basically annexed two parts 
of Georgia in the midst of that. So, obviously, strength alone 
is not the answer in there. It comes with considerable risk.
    So as you are looking at the options here, you know, and 
people are saying, ``Do more,'' what would ``do more'' look 
like?
    And I have heard your answer, and I tend to agree with it, 
that, basically, we are showing the Russian people that Putin's 
actions are hurting them, that their economy is going down when 
it wasn't that high to begin with and, eventually, that begins 
to have an impact.
    But if we were to sort of, you know, step back for a moment 
and say, ``Let's accept this notion that somehow, if we just 
appeared to be strong enough, Putin would for some reason 
abandon all of his perceived interests,'' what would that look 
like? What is it that we would do to show that we were ``being 
stronger'' to change his calculus?
    Secretary Chollet. Well, Congressman, I very much 
appreciate your comment and agree with almost everything you 
have said.
    In terms of what we could do more, it is along the lines of 
operation that we have outlined here for you this morning. 
General Breedlove is currently looking at ways we can do more 
to reassure our NATO partners and to explore ways that, in the 
near term, but over in the medium and long term, we can 
strengthen the ties that we have through NATO, improve their 
military capabilities, the interoperability that the alliance 
has developed over these now--this decade-plus of war together 
in Afghanistan.
    So that is more, and that is something we may do, 
regardless of whatever Putin's next move is.
    Mr. Smith. I agree with you.
    But specifically to the Ukraine, I mean, what you just 
described are sort of the options that are considered not 
enough.
    But where the Ukraine is concerned, I mean, have you 
seriously considered, you know, arming the Ukraine specifically 
and say, ``Hey, Russia is coming. We are going to start arming 
you to the teeth and fight a proxy war with them''?
    Secretary Chollet. So our overall approach throughout this 
entire crisis has been we seek to deescalate tensions and that, 
as the President has been very clear about, there is not a 
military solution to the Ukrainian crisis.
    That said, we have been in very close touch with our 
Ukrainian counterparts throughout the crisis and most recently 
last week with an expert team in Kiev, talking with them about 
the urgent needs they have, but, also, their medium- to long-
term plan for their own military modernization and reform, 
which has a ways to go. Let's be honest.
    Mr. Smith. Right. That is an understatement.
    Secretary Chollet. So there is certainly more we can do. 
And what we are doing is trying to be thoughtful and work 
through with them on what the next steps may be.
    Now, whether or not that has any effect on Mr. Putin's 
mindset is anyone's guess, but it also just may be the right 
thing to do, anyway.
    Mr. Smith. Yeah. No. I think it is the right thing to do, 
anyway.
    But Mr. Putin's mindset, I can't see it having an impact. 
His mindset is based on--you know, I think has been correctly 
described that, basically, he wants to build a--he wants to 
return Russia to its glory, basically.
    His mistake is in perceiving how to do that. The 
devastating and economically annexing small parts of the former 
Soviet Union are not going to lead to that result. And I think 
what we have to do is convince him of that.
    Thank you.
    I yield back.
    Mr. Nugent. Mr. Coffman is recognized for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you so much, both of you, for your dedicated 
service to our country.
    I was in the United States Army's 1st Armored Division in 
the early 1970s, along to fill the gap in then West--the West 
German-Czechoslovakian border, and it was really a great 
demonstration of peace through strength in terms of, I think, 
what was a very effective containment policy, containment 
doctrine, in terms of the Soviet Union and its Warsaw Pact 
allies.
    And it seems that we were lulled in--and justifiably so--in 
the aftermath of the fall of the Soviet Union that NATO had 
to--NATO needed a new mission. NATO had to be repurposed. And 
so we looked at deploying NATO to places like Afghanistan.
    It seems like now we need to take NATO back to its original 
purpose of being a buffer to Russian expansion in the region.
    And so, first of all, I commend you in terms of your 
comment by saying that, you know, it is rotational forces. It 
is joint military exercises as opposed to the reestablishment 
of a large U.S. military permanent presence that we had in 
Western Europe when I was there.
    I think we can more effectively demonstrate our support for 
our NATO allies, but I am concerned--and this was raised 
earlier in testimony--about the commitment of our allies--our 
NATO allies.
    And we, in terms of exercising U.S. leadership, need to 
convince our allies that they need to step up to the plate in 
terms of defense spending, that this cannot be on--the burden, 
on the backs, of the U.S. military and U.S. taxpayers.
    And so what can we do to get our NATO allies to be the 
necessary force multiplier in order to be that buffer to 
Russian expansion by at least going to 2 percent of gross 
domestic--of defense--GDP spending, 2 percent as a minimum?
    Secretary Chollet. Sir, first, thank you for your service 
in Europe and elsewhere.
    And you have, you know, put your finger on what is the key 
issue, and it is something that we have been working for many 
years, but, also, have been frustrated by for many years, which 
is the defense spending and capabilities of some of our NATO 
partners.
    And that Article 5 commitment has always remained the 
cornerstone of the NATO alliance. Even over the last two 
decades, there was--NATO has gone out of area, whether first in 
the Balkans, counter-piracy mission, but, of course, most 
notably in Afghanistan.
    So we work very closely with our partners to try to 
encourage them and, also, help them make the case to their own 
publics about spending greater resources on defense.
    We at the Defense Department try to work with our defense 
colleagues around NATO countries to help them make smart 
decisions about what systems to buy and how we might be able to 
help them think through that.
    I also think this is an area where the Congress and all of 
you on the committee and your counterparts in the House and 
over on the Senate side have a very important role to play as 
well.
    Because, as you know, these are political decisions in 
these NATO democracies, political decisions about how much 
money and resources to spend. And the European economies have 
been suffering as much or, in many cases, way more than the 
United States economy.
    And so working with your counterparts to help make the case 
for why it is important for all 28 NATO allies, not just the 
United States and a handful of others, to maintain that 2 
percent threshold and a strong robust spending on defense.
    But there is no silver bullet here. This is not something 
that we are going to be able to solve with one speech or one 
effort.
    It is something that we are constantly working on, whether 
it is bilaterally or whether it is the NATO summit this 
September in Wales in which capabilities will be a big theme of 
the summit in Wales.
    And I think the Ukraine crisis, if anything else--if there 
is a silver lining to anything that has happened here, it has 
helped remind everyone of the importance of the Transatlantic 
Partnership and NATO specifically, but also been a reminder to 
all of us and our European partners in particular about the 
importance of having a strong defense and spending the 
necessary resources that have that.
    Mr. Coffman. I am running out of time here, but I want to 
make a statement here that I had met with the ambassador from 
Hungary to the United States just prior to the Russian 
incursion into Crimea.
    And what he informed me that the most important thing that 
the United States could do would be to export LNG, or liquefied 
national gas, to break the Russian hold on Europe in terms of 
its dependence on energy resources.
    With that, Mr. Chairman, I yield back.
    Mr. Nugent. Dr. Wenstrup is recognized for 5 minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Do you have concerns that Russia could restrict the parts 
that are needed for the helicopters that have been sold to the 
Afghan National Security Forces?
    Secretary Chollet. Sir, we do.
    Dr. Wenstrup. And so how are we approaching that, if we are 
at all, to try to assure that the Afghan forces will be 
adequately taken care of?
    Secretary Chollet. Sir, you are touching on an issue that 
we thought a lot about and I know we talked with you and this 
committee about, and that is the Russian supply of the Mi-17 
helicopters, which is a critical capability for the Afghan 
National Security Forces [ANSF] as they are seeking to develop.
    And that is why we have been very mindful and careful when 
we have gone about contemplating certain sanctions to ensure 
that our other interests, a strong ANSF in Afghanistan, are 
being served.
    So we have an existing contract with a Russian entity that 
is supplying those Mi-17 helicopters. We are seeking to 
complete that contract and expedite it as much as possible and, 
if necessary, look for ways to mitigate any sort of disruption 
in the supply.
    Dr. Wenstrup. What is our role in that supply line? I mean, 
will they--the maintenance of these aircraft, is that coming 
directly from Russia? Is it coming through us? What is our role 
in that negotiation?
    Secretary Chollet. Sir--and I want to get back to you more 
specifically, but my understanding is our role is in support of 
the ANSF, but it is the Russians who actually have the 
knowledge of how to operate these aircraft and maintain them.
    Dr. Wenstrup. Well, I would think certainly within our 
military we have people that are familiar with those aircraft.
    So my question is: Are we part of that supply line? Is it 
coming through U.S. means and then being delivered to the 
Afghans or are they getting it directly?
    Secretary Chollet. Yeah. I don't--sir, I want to get back 
to you specifically.
    Dr. Wenstrup. Sure.
    Secretary Chollet. I don't believe so. I think it is--we 
are not part of that supply line. But we could get back to you 
with more specifics on how that actually works.
    [The information referred to can be found in the Appendix 
on page 63.]
    Dr. Wenstrup. Sure. Obviously, we have a vested interest in 
their success and being able to maintain that.
    You know, the other question I had--and maybe you can't 
answer that--but, you know, we have had this dual effort with 
the space station with the Russians and especially since we 
have stopped the Space Shuttle.
    Where is that in all of this picture going on today, if you 
have any insight on that?
    Secretary Chollet. Sir, if we could take that one for the 
record.
    [The information referred to can be found in the Appendix 
on page 63.]
    Dr. Wenstrup. If you would, I would appreciate it. Thank 
you.
    And I have no further questions. I yield back.
    Mr. Nugent. The gentleman yields back.
    Mr. Conaway is recognized for 5 minutes.
    Mr. Conaway. No.
    Mr. Nugent. We appreciate it.
    Gentleman, I am going to hold my questions until the 
classified briefing. But I do appreciate your time that you 
spent here answering questions for the committee. And with 
that, we adjourn.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 8, 2014
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 8, 2014

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 8, 2014

=======================================================================

      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
  
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 8, 2014

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY DR. WENSTRUP

    Secretary Chollet. NASA and Roscosmos will continue to work 
together to maintain the safe and continuous operation of the 
International Space Station (ISS), where humans have lived continuously 
for more than 13 years. The success of the ISS program depends on the 
mutual dependence of all partners, and reflects the unique 
contributions each partner provides in support of the program. We 
believe that it is in the interest of all the ISS partners to continue 
our normal operational and programmatic cooperation, and not to allow 
disruption of any of the activities that have maintained a continuous 
human presence on orbit for more than a decade. I defer additional 
questions regarding the ISS to NASA.   [See page 36.]
    Secretary Chollet. Sir, I agree with you that we have a vested 
interest in the success of the Afghan National Security Forces (ANSF); 
the rotary-wing capability we are building for them around the Mi-17 
helicopter is critical to this success.
    Because the Department of Defense (DOD) is investing a substantial 
amount of Afghanistan Security Forces Funds and DOD counternarcotics 
funds in the procurement and sustainment of the Afghan fleet, DOD asked 
the Department of the Army to establish the Project Manager-Non-
Standard Rotary-Wing Aircraft (PM-NSRWA) under Program Executive 
Office-Aviation in 2010. PM-NSRWA serves as the life-cycle manager for 
Afghanistan's Mi-17s and is our lead entity for interfacing with the 
Mi-17 supply line.
    Because the Mi-17 is a Russian-made helicopter, the manufacturing 
is performed in Russia and the parts supply line originates 
predominantly with Russian companies. For procurements of new aircraft, 
PM-NSRWA contracts with Rosoboronexport (ROE) rather than the 
manufacturer because we are buying military variants, and Russian 
defense exports must go through ROE. For maintenance, spare parts 
procurement, and overhauls of the Mi-17s, PM-NSRWA contracts with U.S. 
companies, which then use subcontractors to buy spare parts mainly from 
the Russian manufacturers to ensure they obtain certified parts and to 
perform overhauls at Russian-certified overhaul facilities.
    Using Russian-certified parts and overhaul facilities is important 
to maintaining official Russian airworthiness certification of the 
aircraft, which ensures that our air advisors--who are crucial to 
developing Afghan aviation capability--are flying on well-maintained 
aircraft. To support airworthiness certification of the aircraft, PM-
NSRWA also contracts with the Mi-17 manufacturer for engineering 
services to ensure the manufacturer has cognizance of the aircraft. PM-
NSRWA also contracts for technical bulletins about the aircraft.   [See 
page 36.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
